<html>
<title> - CHILDREN AND DISASTERS: A PROGRESS REPORT ON ADDRESSING NEEDS</title>
<body><pre>[Senate Hearing 111-547]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-547

     CHILDREN AND DISASTERS: A PROGRESS REPORT ON ADDRESSING NEEDS

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DEEMBER 10, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
56-152PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois           ROBERT F. BENNETT, Utah
                      Ben Billings, Staff Director
                  Andy Olson, Minority Staff Director
                       Kelsey Stroud, Chief Clerk













                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Landrieu.............................................     1
Prepared statements:
    Senator Landrieu.............................................    33

                               WITNESSES
                       Tuesday, December 10, 2009

Mark K. Shriver, Chairperson, National Commission on Children and 
  Disasters......................................................     5
Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................     7
Rear Admiral Nicole Lurie, M.D., MSPH, Assistant Secretary for 
  Preparedness, U.S. Public Health Service, U.S. Department of 
  Health and Human Services......................................     9
William Modzeleski, Associate Assistant Deputy Secretary, Office 
  of Safe and Drug-Free Schools, U.S. Department of Education....    10
Paul G. Pastorek, Louisiana State Superintendent of Education, 
  Louisiana Department of Education..............................    19
Matt Salo, Legislative Director of the Health and Human Services 
  Committee, National Governors Association......................    21
Melissa Reeves, Ph.D., Chairperson, Prevent, Reaffirm, Evaluate, 
  Provide and Respond, Examine (PREPaRE) Committee, National 
  Association of School Psychologists............................    23
Douglas W. Walker, Ph.D., Project Director, Fleur-de-lis Project.    25

                     Alphabetical List of Witnesses

Fugate, Hon. W. Craig:
    Testimony....................................................     7
    Prepared statement...........................................    52
Lurie, Rear Admiral Nicole, M.D., MSPH:
    Testimony....................................................     9
    Prepared statement...........................................    56
Modzeleski, William:
    Testimony....................................................    10
    Prepared statement...........................................    72
Pastorek, Paul G.:
    Testimony....................................................    19
    Prepared statement...........................................    79
Reeves, Melissa, Ph.D.:
    Testimony....................................................    23
    Prepared statement with an attachment........................    88
Salo, Matt:
    Testimony....................................................    21
    Prepared statement...........................................    82
Shriver, Mark K.:
    Testimony....................................................     5
    Prepared statement with attachments..........................    39
Walker, Douglas W., Ph.D.:
    Testimony....................................................    25
    Prepared statement with attachments..........................    94

                                APPENDIX

Charts submitted for the record by Senator Landrieu..............    36
Department of Homeland Security Report entitled ``Homeland 
  Security Grant Program, Supplemental Resource: Children in 
  Disasters Guidance,'' Fiscal Year 2010, submitted by Mr. Fugate   107
Project Fleur-de-lis: ``An Intermediate and Long-term School-
  based Mental Health Service Model for Youth Exposed to 
  Disasters,'' submitted by Mr. Walker...........................   125
National Association of School Psychologists Report entitled 
  ``What is a School Psychologist?'' submitted by Dr. Reeves.....   174
Questions and responses submitted for the record from:
    Mr. Fugate...................................................   203
    Dr. Lurie....................................................   206
    Mr. Modzeleski...............................................   210
    Mr. Pastorek.................................................   213
    Mr. Salo.....................................................   216

 
     CHILDREN AND DISASTERS: A PROGRESS REPORT ON ADDRESSING NEEDS

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

                                   U.S. Senate,    
                Ad Hoc Subcommittee on Disaster Recovery,  
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon, everyone. Thank you so 
much for being here today for this hearing of the Subcommittee 
on Disaster Recovery. We have had a series of hearings on the 
subject of how the National Government, with our partners at 
the State and local levels, as well as our nonprofit and 
private sector partners, can do a better job of preparing for, 
responding to, and recovering from catastrophic disasters, and 
I really appreciate all the support from those testifying and 
those listening in to this hearing today.
    Today's hearing is entitled, ``Children and Disasters: A 
Progress Report on Addressing Needs.'' The Subcommittee's 
overall objective today is to evaluate the special needs of 
children during the preparedness, response, and recovery phase 
of disasters and the extent to which current planning and 
programs address those needs.
    This Subcommittee held a previous hearing on this subject 
on August 4, 2009. We have convened once again to evaluate the 
progress that has occurred in the 4 months since.
    The National Commission on Children and Disasters was 
created as a result of the Kids in Disasters Well-Being, 
Safety, and Health Act, which was introduced in 2007 by 
Congresswoman Corrine Brown from Florida and Senators Chris 
Dodd from Connecticut and several of us in the Senate. I was 
proud to be a cosponsor, along with former Senator Kennedy and 
31 other Members of Congress. I want to particularly thank 
Congresswoman Corrine Brown for her leadership in this area, 
having passed the bill in the House which established the 
Commission. We will be hearing from that Commission today.
    We will begin by reviewing the recommendations of the 
Commission's interim report, which was issued on October 14. 
Next, we will hear from our Federal partners to learn what they 
have done since that time to address some of the 
recommendations. And last, we will discuss the challenges that 
displaced families and host communities encountered following 
the Gulf Coast hurricanes in 2005, as they sought health care, 
day care, child care, and educational opportunities for 
children that had been displaced.
    Let me just briefly start with a 5-minute opening statement 
and then I will go into introducing our first panel.
    We are focused, in particular, on the needs of children 
because children are the focal point of a family, and parents 
who cannot find an open school or day care center after a 
disaster may be forced to relocate to a different community 
when we are calling on them to rebuild the one that was 
destroyed. Or parents, if they can't find adequate care for 
children, have to stay home or stay in a relative's home when 
we actually need them back at work, because these parents are 
nurses, doctors, teachers, first responders, construction 
workers that we depend on for the recovery.
    There are 32.5 million families with children in the United 
States. Ninety percent of them include a parent who works. In 
62 percent of the households that contain married couples and 
children, both parents are members of the workforce. If parents 
can't work after a disaster, the community, as I said, will 
have no nurses, teachers, first responders, grocery store 
owners, gas station operators, carpenters, bus drivers, just to 
name a few, and it will make the recovery even that much more 
difficult. So this is an essential component, in this 
Chairman's view, of recovery and I am pleased to know that I 
have many people here that share that view with me.
    The provision of child care and reopening schools are 
essential elements to the recovery. We understand that child 
care facilities are both public and private. Some of them are 
not-for-profit and therefore eligible for FEMA assistance now. 
But many are privately owned and operated, mostly operating on 
very slim profit margins, doing good work in the community. 
Most of the times, at least in my neighborhood where I grew up, 
day care centers were run out of people's homes. If those homes 
have been destroyed by a flood, how do we establish new 
opportunities to get those day care centers restarted?
    I want to show a chart on this issue because this has been 
a major focus of mine. The chart shows totals after Hurricanes 
Katrina, Rita, Ike, and Gustav. The chart shows the 
applications for small business loans for child care centers, 
so I think you can see there were 327 total applications. There 
were less than probably a third, 131, that were approved, 124 
were declined, and 72 were withdrawn.\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Landrieu appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    When we show the other chart broken down by parish, if you 
want to show that, it is even more stark.\2\ This is just a 
snapshot of what happened in Louisiana in the same metropolitan 
area, but different parishes, Orleans Parish, Jefferson Parish, 
and Saint Bernard. There were 275 day care centers in Orleans 
Parish in August 2005, and in June 2009, we had climbed, a very 
difficult climb back up to only 141.
---------------------------------------------------------------------------
    \2\ The chart referenced by Senator Landrieu appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    But if you look at Saint Bernard Parish that had 26, a 
smaller parish, they are just barely back up to 13. It will be 
5 years this August--5 years. And again, if we can't find 
places for children, it is hard to find workers, since most 
parents are workers, and that is one of the main subjects of 
this hearing. We can't continue to neglect these facilities and 
families who rely on them nor can we continue to underestimate 
their importance to a full and robust recovery.
    The other charts indicate the number of schools.\1\ Do we 
have those charts up? If you see here, you can see the school 
situation is still--we are really struggling, and we have our 
superintendent here to talk about this. And although we have 
made good progress, you can see the difficulty of this 
recovery--222 schools post-Katrina. Orleans Parish now has 154. 
Jefferson Parish has slightly less. And then look at St. 
Bernard Parish, 22 schools, only 11 open today. And, of course, 
St. Tammany Parish, which was a hard-hit parish but also one 
that has recovered more quickly and was a host parish to 
Orleans Parish. We have three more schools there than we did 
before. But this is just to show you what the struggle still 
is.
---------------------------------------------------------------------------
    \1\ The charts referenced by Senator Landrieu appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    Reopening schools and day care centers inside the disaster 
area is critical, but we must also look outside the disaster 
area and address the needs of displaced families in host 
communities. Hurricanes Katrina and Rita displaced over 370,000 
children along the Gulf Coast, many of whom lost their homes 
and were unable to return for months. Families had to enroll 
their children in new schools, new child care centers, new 
State-run health care programs, and in many instances that was 
extremely challenging.
    The Federal Government and several States established ad 
hoc programs to assist them. We are going to spend some time in 
this hearing talking about what worked and whether some of 
these programs should be made permanent.
    Children have unique needs that require specialized 
planning. As our FEMA Administrator, who is here with us today, 
Craig Fugate, said, we must ensure that emergency planning 
accounts for citizens in the community, all citizens, not just 
able-bodied adults with ample resources. And children are just 
not small adults. They have special needs, and I agree with 
him.
    Finally, let me mention mental health. As the Commission 
pointed out, children are disproportionately affected by 
disasters in comparison to adults when it comes to mental 
health. Children suffer higher rates of depression, post-
traumatic stress disorder, and behavioral problems following a 
disaster. LSU's Department of Psychiatry screened 12,000 
children in schools during the 2005 and 2006 school year. 
Eighteen percent of them had a family member who was killed in 
the storm--18 percent. Forty-nine percent, almost 50 percent of 
the children screened, met the threshold for mental health 
referral. And 1 year later, that referral rate was lower, but 
not that low. It was 30 percent.
    So according to some good research from GAO that we have 
reviewed, we know that that is still a great challenge. The 
greatest barriers to accessing mental health services are 
transportation, stigmatization, and financial problems.
    School-based counseling--and then I will conclude--that 
same report emphasized an approach to service delivery that I 
would like to focus on today, which is a model of school-based 
counseling. Save the Children and RAND have also commended this 
approach. Schools that require psychological assessments after 
a disaster can help remove the stigma when all children are 
being addressed and spoken to. Placing providers in schools 
helps parents save money on treatment costs and avoid having to 
leave work and drive their children to the point of service, 
particularly when the point of service that they used to drive 
to no longer exists.
    This is very important for people to understand. The 
hospital that was right around the corner is closed. The 
doctor's office that you used to visit is gone. The doctor has 
moved to Houston or to Atlanta. It is not the same after a 
disaster as before, getting your children to these points of 
service, which literally no longer exist, particularly after a 
catastrophic disaster.
    School counselors also represent an existing workforce that 
can be trained in advance of a disaster, rather than relying 
exclusively on counselors only that deploy to the disaster area 
for a limited time. So hopefully we will hear some good 
suggestions about school-based counseling today.
    And finally, millions of parents, educators, counselors, 
social workers, nonprofit innovators, and community leaders 
work hard every day to improve the lives of children in this 
Nation. Through the continued efforts of the Commission and 
State and Federal partners that are here today, we must provide 
strategic leadership and resources to move our children out of 
harm's way before disaster strikes, get them quickly back into 
school and to a day care support system that helps their 
parents get back to work, work that we depend on to rebuild our 
communities. We must invest in a smart, strategic, community-
based support network. That is what this hearing is about 
today.
    So I am pleased to begin this hearing and to introduce our 
first panel. We will be very happy to hear their remarks on 
this subject.
    Our first witness is Mark Shriver, who Chairs the National 
Commission. As I said, this Commission was authorized by 
Congress and recently released its initial report. I really 
look forward to Mr. Shriver's testimony today as he discusses 
the interim report and ongoing efforts to address these and 
other needs.
    Next we have Craig Fugate, Administrator of FEMA. This is 
his third time before this Subcommittee. We are honored to have 
him speak here again. He previously served as Director of the 
Florida Division of Emergency Management, so he brings a lot of 
State experience and, of course, some very well respected 
national leadership.
    Rear Admiral Nicole Lurie is the Assistant Secretary for 
Preparedness and Response (ASPR) at the U.S. Department of 
Health and Human Services. The ASPR coordinates interagency 
activities between Homeland Security and other Federal 
agencies, State, and local officials to protect civilians from 
acts of bioterrorism and other public health emergencies. She 
also testified before this Subcommittee in August. We are 
pleased to have her here again.
    And finally, Bill Modzeleski. He is the Associate Assistant 
Deputy, U.S. Department of Education, Office of Safe and Drug-
Free Schools, where he is involved in the design and 
development of drug, alcohol, and violence programs. He has 25 
years of experience at the local and Federal levels in the area 
of criminal and juvenile justice. Today, he will discuss 
Emergency Impact Aid programs created to address the needs of 
students displaced by Hurricanes Rita and Katrina.
    So let us begin with our first panel. You have each been 
given 5 minutes to summarize your testimony. We are pleased to 
begin with you, Mr. Shriver and thank you for your leadership.

    TESTIMONY OF MARK K. SHRIVER,\1\ CHAIRPERSON, NATIONAL 
              COMMISSION ON CHILDREN AND DISASTERS

    Mr. Shriver. Thank you, Madam Chairman. I am very honored 
to be here once again with the opportunity to testify. The 
Commission is especially grateful to the Subcommittee and your 
leadership for your continued and diligent focus on the 
recovery needs of children affected by disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Shriver with attachments appears 
in the Appendix on page 39.
---------------------------------------------------------------------------
    The Commission's interim report, which you referenced 
earlier, Madam Chairman, has 21 primary recommendations and 25 
supporting statements to help guide the implementation. For 
today's hearing, I will focus on just a few key areas.
    When it comes to long-term recovery, the Commission 
strongly urged FEMA and the Obama Administration to 
aggressively intensify efforts to develop a National Disaster 
Recovery Framework. We are pleased that the President 
established a Long-Term Disaster Recovery Working Group, and 
the Commission intends to make meaningful contributions to the 
report that is due to the President in just a few months and 
the design framework, which is due in June 2010.
    The overarching principle for recovery from disasters, as 
you have mentioned, Madam Chairman, must be to create self-
sufficient families and a new and improved normalcy for all 
children, especially children who are socially and economically 
disadvantaged. The National Disaster Recovery Framework 
currently in development should specify services that must be 
provided to children affected by disasters, such as safe, 
stable housing; access to physical, mental health, and oral 
health services; child care; adequate nutrition; disaster case 
management; and other services.
    A specific Federal entity should be designated with 
oversight, coordination, and guidance responsibilities, as the 
Commission's report indicates, to create awareness of all forms 
of Federal assistance to state and localities that address the 
needs of children and families affected by disasters.
    Second, on the disaster case management services front, the 
Commission is very pleased that FEMA and the Administration for 
Children and Families have recently come to terms on an 
interagency agreement that was announced here in front of your 
Subcommittee a few weeks ago. The ACF model is comprehensive in 
scope and focused on achieving measurable, positive outcomes 
for children and families. ACF's program was originally 
intended to transfer responsibilities to local agencies as 
quickly as possible. However, FEMA prefers that the disaster 
case management responsibilities transfer to the affected 
State.
    Recognizing the difficulties encountered in State-led 
programs envisioned for Texas and Louisiana, as you know, 
following Hurricanes Gustav and Ike, which resulted in 
extensive delays in services being delivered to kids, the 
Commission has posed a number of questions to FEMA which are in 
the written testimony, so I won't go through them all, but I 
think there are a couple of key issues that we have actually 
spoken to the Administrator about and I think he will probably 
allude to them, and I think they have some good answers, but I 
think that bears making sure that we watch that going forward.
    As far as child care, Madam Chairman, the charts that you 
showed behind you are incredibly revealing. Nearly 12 million 
children under the age of five are in child care each week. 
Child care providers must be prepared for disasters, not only 
to ensure children's safety and mental well-being in the face 
of danger, but also to facilitate recovery by providing support 
services to parents, guardians, employees, and employers in the 
aftermath of a disaster.
    The Commission sees the reauthorization of the Child Care 
Development Block Grant program as a prime opportunity to 
address the lack of basic disaster preparedness among child 
care providers across the country. There is a report, from Save 
the Children, which shows that only seven States have child 
care facilities in schools that meet the basic minimum 
requirements for child care for disaster planning and response.
    The Commission has been collaborating with FEMA to identify 
areas of potential disaster assistance for child care services. 
We are very pleased that FEMA, under Administrator Fugate's 
leadership, has committed to provide temporary facilities for 
child care providers that sustained damage beyond repair and to 
support States' efforts to stand up emergency child care 
facilities and provide emergency child care services for a very 
brief term in the immediate aftermath of a disaster.
    However, the Commission recommends a change to the Stafford 
Act that would allow FEMA to continue supporting the provision 
of child care services for a longer duration in the recovery 
phase and to provide assistance to affected families for 
placement of children in child care. The major shortcoming of 
the Stafford Act is the inability to support the repair, 
restoration, or rebuilding of private, for-profit entities, 
such as child care facilities, that provide essential community 
services.
    Madam Chairman, I know there is a lot of discussion in the 
Congress about the fact that there shouldn't be dollars out of 
the Stafford Act to support for-profit entities, but I think 
your charts really reveal in very vivid numbers that there has 
got to be something done. If folks are not in favor of using 
Federal dollars to assist for-profit entities that are 
providing essential services, then surely under your leadership 
we can come up with a creative solution. When you have that 
many entities not providing services to working families, it is 
really a disaster waiting to happen, and it is happening.
    Madam Chairman, I know my time is up. There are other 
statements in the report. The only other thing I did want to 
say which is not in my testimony is the issue of medical 
countermeasures. I know Dr. Lurie has been appointed by 
Secretary Sebelius to look into this issue as a result of the 
H1N1 virus, and I think it is imperative for this Subcommittee 
and this Congress to make sure that children's needs are 
identified throughout that process and throughout the funding 
mechanisms that are put out to study this issue. The Institute 
of Medicine is revealing how to deal with issues to provide 
medical countermeasures in this country, as well. But once 
again, children's needs are overlooked on so many of these 
efforts. So I hope that the Subcommittee and your leadership 
will continue to look at the issue of medical countermeasures 
in children, which make up over 25 percent of the population 
not being addressed in those issues.
    Thank you very much again for your leadership.
    Senator Landrieu. Thank you very much. Administrator 
Fugate.

 TESTIMONY OF HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Fugate. Good afternoon, Madam Chairman. In August, you 
asked us to address these issues and we are here today to give 
you a progress update of what we have been able to accomplish 
in the last 4 months.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 52.
---------------------------------------------------------------------------
    At that time, we announced that we were going to create a 
Children's Working Group within FEMA to begin addressing the 
Commission's recommendations and looking at things in a more 
holistic approach versus developing one box, but really looking 
across our programs so that as we plan, prepare, respond, and 
recover from disasters, we incorporate the entire community and 
recognize that children are 25 percent or more of that 
community that we plan for.
    The Commission's interim report and its steps have really 
tailored and driven what we have looked at, and working closely 
with Mark and others from the Commission, we have been trying 
to address these issues within the scope of authorities we 
currently have, but also identify issues that may require 
additional assistance. So I would like to share that progress 
with you today.
    As was reported out by Mark Shriver, we have the 
interagency agreement with the Administration for Children and 
Families, and I think this is one of the things that is really 
important to us in FEMA. We try to explain to people, we are 
not the team, we are part of a team, and we need to really 
reach out in the Federal family where that expertise is and 
bring that in, and this contract and the ability to bring these 
services forward in this agreement will provide that initial 
response.
    But as Mark pointed out, as well, at the point where this 
should now be devolved to a State program, where previously 
FEMA would look at grant requests and the grant for these 
services on the technical means of the grant, we are partnering 
back with Administration for Children and Families to help us 
assess the quality of that grant to ensure that the services 
that are being proposed are going to be effective in delivery 
and use the expertise that HHS brings to this process to help 
us assess that grant versus merely looking at it from the 
standpoint of was the grant properly filled out.
    And I think this gets back to some of the concerns about 
how effective we were able to bring these programs when they 
moved to the State and continue them. We are willing to work 
with States to encourage them to utilize this inter-local 
agreement and contract back to the service providers if their 
program is not ready to go.
    Some of the other issues that were brought up by the 
Commission were looking at how we integrate children in all of 
our areas. So here are some of the steps we took. Yesterday, 
Secretary Napolitano announced over $2.7 billion in Homeland 
Security grants now available for the application. We were able 
to, through the Children's Working Group, develop specific 
language to go into the grant guidance to address children's 
issues. This is the first time, if you looked at these grants, 
that it really says that these activities are eligible. It was 
never denied they could do it, but we felt it was important to 
take the recommendations of the Commission and provide specific 
language in the grant guidance saying that, yes, these types of 
activities are not only allowable, they are desired in your 
grant applications.
    We also had been working with the Commission over shelter 
supplies that children need, and Red Cross had taken a 
leadership role in this. We went back and met with our working 
group in Red Cross and the Commission to further refine the 
shelter list of supplies for disasters to incorporate the needs 
of children. We have taken and have consolidated that list now 
that the Red Cross is using with the Commission's input are in 
the process, through our Logistics Directorate, of actually 
going out and bidding out and building these packages.
    Obviously, if a disaster strikes now, we are able to take 
those lists and go, but we want to incorporate, again, and stay 
away from sole sourcing or non-competitive bid products, so we 
are building that into our acquisition schedule. Logistics 
implies that we should be ready to go sometime in February, but 
we have the list now if something happens and we need to go.
    The last part of it was in child care facilities and 
services. Again, the Commission made several recommendations, 
particularly in day care services. We were able to go back, and 
again, I give a lot of credit to Tracy Wareing and the folks 
that were leading the charge on the Children's Working Group, 
to really get with our public assistance folks and clearly get 
guidance on the fact that we consider providing day care 
services in the response phase an eligible activity, that we 
clearly consider, as Mark pointed out, facilities and other 
temporary facilities to provide those services should be 
eligible, and clearly indicate that not-for-profit day care 
centers will also be looked at as eligible if they did not 
qualify for SBA, for FEMA assistance to an eligible nonprofit 
for a critical function in the community.
    So these are some of the things that we have gone back and 
made sure that, within our public assistance program under the 
Stafford Act, we are going to be able to deliver those 
services.
    And so with that, Madam Chairman, we will conclude and 
appreciate further guidance and any questions you may have.
    Senator Landrieu. Thank you. Admiral Lurie.

    TESTIMONY OF REAR ADMIRAL NICOLE LURIE, M.D., MSPH,\1\ 
   ASSISTANT SECRETARY FOR PREPAREDNESS, U.S. PUBLIC HEALTH 
     SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Admiral Lurie. Thank you, Madam Chairman. It is a privilege 
to testify again before you this afternoon. I want, first, also 
to commend this Subcommittee for its leadership on this 
critical issue and its focus on children as well as the 
critical work of the National Commission, and I am thrilled to 
be joined by my colleagues from FEMA and Education to create 
really a seamless system to support children in disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Admiral Lurie appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    I, too, would like to just provide a brief overview of the 
progress that HHS has made since we last met, and I am also 
prepared to discuss the action that we have taken to address 
the Commission's interim recommendations.
    Beginning with my office, as you know, ASPR plays a pivotal 
role in coordinating emergency response efforts across the 
Department and among our Federal, State, and local partners. As 
we have done for our H1N1 and recent response to the tsunami in 
American Samoa, in those efforts, children's focused activities 
ranged from ensuring the availability of pediatric suspension 
of antivirals when it was in short supply to deploying 
emergency physicians trained in pediatric care as well as 
mental health teams.
    We have been using tools such as HavBed and a recent 
ventilator survey to identify and monitor the surge capacity 
for children during H1N1. And we have been building on our web 
capability using mapping methods to be sure that we actually 
have enhanced awareness to identify where there are pockets of 
children, particularly disadvantaged children, before we send 
teams in to assist, including locations of schools and day care 
facilities, pediatric hospitals, and intensive care services. 
And we will be adding additional information over the next year 
on other special needs of children, in addition, language and 
other needs.
    We have also been enhancing the National Disaster Medical 
System to focus on pediatric issues, and as you may know, we 
now have appointed a pediatrician as our Deputy Chief Medical 
Officer. We now have about two-thirds of NDMS clinicians 
trained in pediatric care and have been evaluating our 
equipment caches to be sure that they can be modified to meet 
the needs of children.
    You have just heard from Administrator Fugate about the 
collaboration with the Agency for Children and Families, and we 
are really thrilled about the progress in that area, as well. 
As you know, ACF monitors the status of Head Start and child 
care facilities. During H1, ACF did the same, monitoring 
closures of all Head Start centers and child care centers. But 
importantly, also, it facilitated access to information about 
how parents and children could protect themselves during the 
pandemic and help people seek out vaccine and encourage 
vaccination among particularly vulnerable groups.
    And you have just heard about the interagency agreement 
recently signed between FEMA and ACF, and so I don't feel like 
I need to go into that further, but we are really very pleased, 
also, about the ability to preposition contracts so they can be 
executed, as needed.
    CMS has also been active, and as you know, in the aftermath 
of the hurricanes, CMS developed a model template that States 
could use to ensure the portability of benefits and really 
taking a hard look at issues related to enrollment, retention, 
portability, and coverage. CMS is currently consulting with 
State Medicaid and CHIP directors and many other stakeholders 
to make recommendations about how to enhance those efforts, and 
that work is, I believe, well underway, and we anticipate these 
efforts will continue to enhance knowledge and ultimately lead 
to some really solid recommendations about how to improve the 
coordination of care for displaced children.
    With regard to mental health, we all know that effective 
disaster preparedness is an essential part of SAMHSA's mission. 
The number of programs they have, including the counseling, 
training, and assistance program, continue to be active. Since 
we last testified, our team has met with Commission staff to 
plan a coordinated response to the interim recommendations, as 
well as receive the recommendations of our Advisory Committee's 
Disaster Mental Health Subcommittee, with which there is a 
great deal of synergy with the Commission recommendations, and 
we are actively working those issues now.
    With regard to the countermeasure issue just identified, we 
recently convened a pediatric preparedness and response 
workshop focused on many of these issues, and our recent PHEMCE 
stakeholders workshop really paid special attention to the 
development of countermeasures for children. And as we have 
just seen through the issues about H1N1 and even something as 
simple as pediatric antivirals, this is just a very critical 
issue for us moving forward.
    Finally, we all know that what happens in early childhood 
often determines health over the life course, and particularly 
for those reasons, we remain fully committed to continually 
improving our efforts to address the recovery of children and 
look forward to continuing to work with the Subcommittee, 
colleagues across government, the Commission, and other 
partners.
    I would be happy to answer further questions.
    Senator Landrieu. Thank you very much. Mr. Modzeleski.

TESTIMONY OF WILLIAM MODZELESKI,\1\ ASSOCIATE ASSISTANT DEPUTY 
     SECRETARY, OFFICE OF SAFE AND DRUG-FREE SCHOOLS, U.S. 
                    DEPARTMENT OF EDUCATION

    Mr. Modzeleski. Thank you, Madam Chairman. Thank you for 
the opportunity to be here today to discuss how the Department 
of Education has responded to the needs of children affected by 
disasters, including the role that we at the Department of 
Education played after Hurricanes Rita and Katrina, and to 
address the recommendations made by the National Commission on 
Children and Disasters in their October interim report.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Modzeleski appears in the 
Appendix on page 72.
---------------------------------------------------------------------------
    I want to begin by providing a brief overview of the status 
of emergency management planning in elementary and secondary 
schools. In that regard, I am pleased to report that almost 
every school in the country has developed an emergency 
management plan. However, while most schools have these plans, 
we know from a variety of sources that a number of these plans 
have weaknesses.
    To help schools address these weaknesses and to help ensure 
that they have the necessary resources to plan for, respond to, 
and recover from emergencies, we are implementing a variety of 
activities, including Project SERV, the Readiness Emergency 
Management for Schools, or REMS Program, the Readiness 
Emergency Management for Higher Education Program, and the 
School Counseling Program. Let me provide you a brief overview 
of each of these.
    Project SERV was created by Congress and implemented by the 
Department of Education in 2001 to help schools restore the 
learning environment as quickly as possible after experiencing 
an event that disrupts teaching and learning. Events such as 
school shootings or natural disasters, including hurricanes, 
can have a traumatic effect on students, parents, and faculty, 
and Project SERV funds can be used for additional services that 
are often needed, such as mental health counseling, security 
assistance, or substitute teachers.
    For example, shortly after Hurricane Katrina struck the 
Gulf Coast, we made grants totaling $7 million to each of the 
states that were directly impacted by the hurricane. SERV funds 
were used for a variety of efforts, including hiring additional 
counselors and social workers, providing supplemental 
educational services for students who had missed school, and 
offering teacher professional development on recovery-related 
topics.
    In February 2008, after the shootings at Virginia Tech and 
Northern Illinois University, Project SERV was expanded so 
funds could be awarded to institutions of higher education. 
Since the inception of the program, we have made 74 awards, all 
except one to K-through-12 schools, totaling $26 million. The 
grants were made in response to a variety of traumatic 
incidents.
    The Readiness Emergency Management for Schools initiative 
was created by Congress and implemented by the Department of 
Education in 2003. The program is designed to provide funds to 
districts to create, strengthen, or improve emergency 
management plans at the district and school building levels. 
Funds from this initiative can be used by LEAs to train school 
personnel in emergency management procedures, including 
training and recovery-related areas, to coordinate with local 
community partners, and to improve local capacity to sustain 
emergency management efforts. Since the inception of this 
program, we made 717 awards to school districts, including 
awards to Saint Bernard, Saint Tammany, and Jefferson Parishes.
    Education also administers the program, Elementary and 
Secondary School Counseling Program. While not primarily a 
disaster recovery program, the program supports enhanced access 
to mental health services for students and helps schools 
provide a comprehensive counseling program to meet students' 
needs, including recovery from a crisis.
    Aside from these various programs, Education provides 
training and technical assistance focused on emergency 
management to assist schools in their efforts to plan for and 
recover from disasters. The framework for our emergency 
management guidance was published in 2003 and provides school 
officials with information on critical concepts and components 
of good crisis planning.
    In addition to our broad and ongoing efforts to address 
emergency management in all schools, Education engaged in 
numerous activities designed specifically to support the 
recovery effort following Hurricanes Rita and Katrina. In the 
days, weeks, and months following the hurricanes, Education 
staff conducted numerous calls, meetings, and training sessions 
with State and local officials, and provided written guidances 
needed to respond to concerns. Education also granted waivers 
to various provisions of fiscal and Administration requirements 
of the Education Department requirements. Additional 
information about these programs can be found in my written 
testimony.
    In its interim report, the National Commission on Children 
and Disasters made two recommendations related to elementary 
and secondary schools. In Recommendation 7.1, the Commission 
suggested the establishment of a School Disaster Preparedness 
Program, including the appropriation of funds to Education for 
a dedicated and sustained funding stream for all SEAs.
    In Recommendation 7.2, the Commission suggested enhancing 
the ability of school personnel to support children who are 
traumatized, grieving, or otherwise recovering from a disaster.
    We appreciate the Commission's work and believe that the 
many activities I have discussed here today have helped schools 
be better prepared to plan for, respond to, and recover from 
disasters. We are currently reviewing the recommendations to 
determine what additional actions we may take to provide 
schools with the most effective emergency management support 
possible.
    Thank you very much.
    Senator Landrieu. Thank you very much.
    I just got a notice that they have just called a vote, but 
I am going to continue on and then take a brief recess and come 
back.
    Mr. Shriver, let me begin with you. You have done, I guess, 
the most extensive general work on this subject. What would be 
the short version of your assessment of how well the Federal 
agencies are working together to keep children at the focus? Do 
you think that the agencies are appropriately focused on 
process or outcomes or a combination? And if you had to tell 
this Subcommittee about one or two areas of progress or lack 
thereof, what would those be at this point?
    Mr. Shriver. It is a long question and I will give you a 
very short answer. I think that there are a lot of folks that 
care about this issue. I think the interim report has been 
received very well. But I think, really, the question is what 
actions are going to be taken that make a difference in kids' 
lives. I think there are a lot of folks in the Federal 
Government that have a lot of responsibility over a bunch of 
different areas and it is hard to coordinate that and 
coordinate it across agencies, departments much less.
    I think what has happened at FEMA under Administrator 
Fugate's leadership is very strong steps to make concrete 
changes to have a working group and a high-level person on 
that. That working group cuts across the agency or across FEMA 
and meets with him and we have, through the Commission, a 
monthly meeting with the Administrator which forces the issues 
on a monthly basis, and I think that type of structured, 
results-driven approach is critical.
    I would say that if other agencies across the Federal 
Government were to do that, that would be fantastic. I think 
that is a concrete step that reports to a high-level person 
with strong staff support that makes a difference and is, 
again, on a monthly basis meeting with the Commission and 
Commission staff. So there is a lot of accountability on that.
    The Administrator and I talked a while ago about the issue 
of child care, and child care regulations fall under the Child 
Care Bureau at HHS. They don't have the expertise to lay out 
plans for disaster preparedness response and recovery. FEMA has 
that. FEMA doesn't have the expertise to deal with kids and 
child care facilities. Getting them together to really work on 
that, where they can form a very strong team and come up with 
strong results that will help kids in child care facilities be 
prepared for disasters, that is some work. So I think, 
frankly----
    Senator Landrieu. And I might mention on that that SBA has 
a responsibility to finance them. So they need to be at the 
table, as well, and I guess my question would be, since FEMA is 
at these meetings, or you are at the monthly meetings with 
FEMA, is the Department of Health and Human Services there? Is 
the Department of Education there? And if so, I would like to 
hear from you all. And if not, why not? Do you need a special 
invitation, or do you feel like it is not something that is a 
priority, or--if you want to start, Admiral.
    Admiral Lurie. I will have to confess, I will need to 
consult with my colleagues at ACF about whether they are at 
these monthly meetings. I do know that ACF and FEMA have been 
working extremely actively together and I think this 
interagency agreement that was signed December 1 is really 
strong evidence of that and I think there is a full intent to 
continue to collaborate on the planning and taking advantage of 
the synergies for which there are.
    I know that I meet regularly, as well, with my staff about 
children's issues now and to look at the kinds of things that 
we can do going forward, both through H1N1 and through this 
response, as well as the other opportunities that we have in 
the countermeasures area.
    I am just informed, in fact, that ACF is at this regular 
meeting, so that is ongoing----
    Senator Landrieu. Let me just be clear, and it may just be 
that I am not clear. Administrator Fugate, is it your idea or 
under your general framework that FEMA is going to enter into 
an agreement with each Federal agency as it relates to 
something in their jurisdiction relative to children? For 
instance, do you perceive that you will have an agreement with 
the SBA along certain lines, or an agreement with Health and 
Human Services, an agreement with Education, so it is a series 
of interagency agreements between you and these agencies? Or is 
it going to be one interagency framework or understanding? 
Could you describe how we are building this, because it is a 
different kind of approach.
    Mr. Fugate. Yes, Madam Chairman. I think, to be fair to my 
fellow agencies here, the meetings that we have been having 
with Mark Shriver and the Commission have really been focused 
on their specific recommendations to FEMA's delivery of 
services. As we go through that process, we have been really 
working on the FEMA side and internal to FEMA to make sure we 
have gotten that right.
    Again, what it does is it puts us in a position to then 
approach ACF on how do we provide counseling. You guys do this 
better than us. We need to leverage your expertise. Let us get 
this agreement in place. So we really, in this first 4 months, 
have been mainly focused on the Commission's reports that 
directly stated about FEMA's delivery programs to get that.
    I think our national long-term recovery strategy that the 
President has tasked us with and given Secretary Napolitano and 
the Secretary of HUD, the co-chairs of that, is really, I 
think, where we are going to start looking at some of these 
issues that go beyond the immediate response and get into 
recovery, and I would envision that to be the framework, that 
as we take the Commission's recommendations and we have been 
making sure that we have done outreach to the Commission and 
their constituencies when we have gone out and had these 
meetings to have them there, that those things that would be 
Stafford Act-driven, we are going to work on. But those things 
that require agencies to support that or that expertise resides 
in other agencies, we want to build that linkage.
    But I think, ultimately, the National Response Framework 
will probably be the best vehicle to look at some of the more 
downrange issues, many of the issues you are pointing out here, 
schools and other things that are going to go beyond just 
Stafford Act, rebuilding the schools. We have got to make sure 
we have teachers. We have got to make sure we have all the 
support mechanisms. Those are the kinds of things that I think 
that long-term recovery framework is going to give us a better 
way to hook our agencies together.
    Senator Landrieu. Well, you know I have shared this with 
you privately and publicly many times. I don't expect, as the 
Chairman of this Subcommittee, and I think no one in the 
Federal Government expects FEMA to do everything. We understand 
that you have statutory limits and budgetary limits. But what 
we are looking for FEMA to be is the expert on disaster, the 
coordinator, the nudger, the pusher, the prodder to other 
agencies to step up and do what they do so that we can have a 
successful response and not a patchwork response. We can have a 
successful recovery, not a patchwork recovery.
    And really, as I continue to study and observe this, it is 
almost breathtaking in the gaps that still exist, even after 
Hurricanes Katrina and Rita, and even after the good work that 
you and particularly this Administration has done. We still 
don't seem to have a consensus almost 4\1/2\ years later how to 
finance day care centers, how to basically accommodate tens to, 
in the case of Louisiana, remember, we had 40,000-plus children 
displaced--not 400, not 4,000, not 14,000, 40,000--47,000 
children looking for a place to go to school on that Monday 
morning. And we still haven't really resolved that issue at the 
Federal level as to whether they are going to go to a school 
that is public, private, Catholic, etc. I mean, this is 4\1/2\ 
years later.
    I am looking at a report card from ``Are States Prepared to 
Protect Children During Disasters,'' from Save the Children, 
and was actually quite aghast when I saw that over half of the 
States do not require plans for have evacuation, reunification, 
or special needs of children in care, including the State of 
Louisiana, and the States of Kansas and Missouri, which have 
had tornadoes, including Kentucky, Georgia, and Florida, which 
have been hit hard recently, that there is no law on the books 
in those States--even in my own State, which I am floored to 
learn. They don't have requirements for these evacuation and 
reunification plans.
    Now, I don't know if this Subcommittee has the time to pass 
legislation requiring all these things. It would seem to me to 
be sort of a common sense administrative approach, either 
through holding back Federal funding or saying you can't get 
Federal funding unless you do these certain things, to require 
this. So again, I mean, that is part of what this hearing is 
about, is how much new law do we need and why is this not so 
obvious to people, particularly given the tragedies that have 
happened recently just from hurricanes, let alone some of the 
other disasters that we have experienced.
    So if you all would just ponder that, I am going to recess 
for 10 minutes, go vote and to come back. We will reconvene 
with maybe a question to each of you all and then go right into 
the second panel. Thank you very much.
    We stand in recess.
    [Recess.]
    Senator Landrieu. Thank you very much for your patience. 
The meeting will come back to order after our brief recess.
    I am going to finish up with a question for each of our 
first panel and then go right into our second panel.
    The Department of Education, as you know, under the really 
extraordinary leadership, as I vividly remember, of Senator 
Kennedy and Mike Enzi, Senator Enzi, Congress quickly 
established the Emergency Impact Aid Program in October 2005 to 
provide tuition reimbursement for K-through-12 students who 
were displaced. There were, as I said, over 300,000 students 
displaced. The Department of Education administered this 
program until it sunset at the end of the 2005-2006 school 
year. It served over 180,000 students in 49 States.
    According to your review, Mr. Modzeleski, how did that 
program work? How did it function? What are your views? And 
should we put something permanent into the law so we could 
quickly access it again if we needed it?
    Mr. Modzeleski. Thank you, Senator. Please note that, in my 
written testimony, I provide a lengthy statement about that 
particular program, and one of the things that really worked 
very well with that program is the ability to move it out very 
quickly. Other aspects of that are being reviewed and we would 
be more than happy to work with you to give you a complete 
review of how it worked.
    If you would allow me, I would like to take one minute on 
the question that you had about the evacuation plans from 
schools because I think it is very important.
    Senator Landrieu. Go ahead.
    Mr. Modzeleski. We have, as I said, provided funds for 717 
school districts in the area of readiness emergency management 
for schools, trying to get schools prepared to deal with 
disasters. Our approach has been to provide them with a broad-
based rubric to develop their crisis plans, make sure it is an 
all-hazards plan, make sure it deals with all four phases of 
crisis planning, and----
    Senator Landrieu. And how many school districts did you 
say?
    Mr. Modzeleski. Seven-hundred-and-seventeen.
    Senator Landrieu. Do you know how many there are in the 
country?
    Mr. Modzeleski. There are 15,000.
    Senator Landrieu. OK.
    Mr. Modzeleski. The ``however'' is that 23 of the 25 
largest school districts have received funding, so when we look 
at the large school districts--when we look at the number of 
kids who have received funds or have benefitted from funds from 
the Department of Education for emergency management, it is 
approximately half. So we have about 50 million kids in schools 
in this country. We realize that there are a lot of small 
school systems that haven't received those fundings, and we 
plan to continue to provide them with funds in FY2010, funds 
that you have been gracious enough to appropriate.
    But on evacuation, the point is that for schools, we must 
look not only at the district level, but at the school level 
because every school is different.
    We took a look at the Louisiana law, because when the GAO 
reported on emergency management planning for schools, they 
basically said that Louisiana did not have a requirement for 
developing emergency management plans. Well, they do, and their 
requirement for emergency management plans is similar to a lot 
of other States, and that is that it is a very broad-based 
plan. And the reason why many of these plans are broad-based at 
the State level is because there is a recognition that the 
districts within the State are very different.
    So rather than articulate specifically what needs to be 
done--because if they did that, it may be ten or 12 pages long 
of just all the things that need to be done--most States have 
adopted a procedure for schools which says, broadly speaking, 
here is what really we want you to do, and based upon your 
resources, based upon your needs, based upon your expertise to 
develop plans around that. We have tried to supplement that, 
and part of my written testimony goes into a rather lengthy 
discussion about the training and technical assistance that the 
Department of Education has provided and continues to provide 
to help schools improve their crisis planning.
    Senator Landrieu. OK. I would like to ask Administrator 
Fugate, is this at all either shocking or troubling to you, or 
do you think this is just the nature of the way this works. 
This is 4\1/2\ years after Hurricane Katrina, and yet more than 
half the States, even having witnessed what happened, don't 
seem to have any laws in place requiring just this basic 
planning requirement. If you could respond.
    Mr. Fugate. I think, in general, when you look at day care, 
whether States even license day care facilities and those types 
of activities they are involved in there, this has not been 
something that has been uniformly applied. As the report shows, 
some States have requirements for emergency plans and other 
States do not. Some States only require it around certain 
hazards, like nuclear power plants.
    And again, on the Federal side, our general ability to 
direct this is looking at what funding is available for day 
care centers. So, again, it may not be in the Federal Emergency 
Management Agency, within HHS, the funding that they provide to 
provide affordable day care. But again, partnering and looking 
at how we can incentivize that and provide not only a 
requirement with the Federal dollars to do training, but then 
provide the materials appropriate.
    Because again, as we know, many of these are not very large 
facilities with a lot of resources, and a lot of times they 
are, as you point out, very small operations. So we don't want 
to come in with planning requirements so egregious that we put 
people out of business. But really, how do we provide them the 
tools to protect their children while they are there----
    Senator Landrieu. Well, and I am more concerned--I mean, I 
am concerned about protecting children in day care centers, but 
I am also very much focused on how to reestablish them after 
they are either destroyed or impacted, because I realize that 
some people may think this is a side item, but again, when you 
think about rebuilding a community after a disaster, most of 
the people that can do that are parents.
    The electricians have to repair the lines. The contractors 
have to lay new pavement on the streets. The debris removal 
teams have to remove trees. Most of those people have children. 
They are not retirees. Their children are of school age, just 
by the nature of who is in the workforce.
    So this issue of who is taking care of children while you 
are trying to recover is central to the successful recovery 
effort. There is just no way around it. And so the sooner that 
I can grasp that the Federal agencies understand that, the 
better off we will all be, because it is not just a separate 
program. It is the basic foundation of recovery.
    What is it that we have to do to either provide funding, 
support, etc, so that the parents that we are depending on to 
lead the recovery can actually do so, because if we don't, they 
are going to be taking care of their children while the streets 
don't get paved, the electric lines don't get up, and hospital 
operating rooms don't get turned back on because there is no 
one to run them. I mean, this is a problem in normal, regular 
life and daily life in America, but it becomes so obvious after 
a disaster if you have lived through it like I have.
    Let me just go on to one or two more questions. For 
planning requirements for the HHS grants, let me ask Health and 
Human Services about something that has come to our attention. 
You realize that there are thousands and thousands of children 
in the custody of parents when disasters happen, and 
grandparents and guardians. But there are also thousands of 
children actually in the custody of the government. Those would 
be foster care children.
    In Louisiana when Hurricane Katrina hit, we had 5,000 
children in foster care. Mississippi had approximately 2,700. 
Texas had 31,000. Florida had 30,000. And Alabama had 6,000. So 
just the Gulf Coast, that is almost 75,000 children.
    What is our plan for foster children, because some of them 
may be in group homes with ten or 15 other children. Some of 
them are in family-like settings. Do we have any special plans 
in place that if a major hurricane hits the Gulf Coast again, 
these 75,000 foster care kids who are displaced can do what, go 
where?
    Admiral Lurie. Well, it is certainly fair to say that there 
was not a plan in place before Hurricanes Katrina and Rita and 
I think everybody has really recognized the needs and the 
special needs of these children. As things stand right now, 
ACF's Children's Bureau very actively works with children in 
the foster care system, and post-disaster, the SAMHSA crisis 
counseling people also very frequently encounter children in 
foster care and families with children in foster care and start 
to serve as one-stop, at least triage to help children and 
foster children access the appropriate services.
    Similarly, in the middle of response, through our ESF-8 
mechanisms, our operations center is able to get everybody 
across the whole spectrum that touches the health of children 
involved to try to coordinate acutely.
    Going forward, this is clearly one of the things that has 
to be a piece of a coordinated approach to children and all of 
the kinds of special issues they have. Going forward, our new 
Policy Office will have a focus on children, and these are the 
kinds of issues that absolutely need to be taken up.
    Senator Landrieu. OK. And again, I just really, really 
encourage you to really understand just the dynamics of what 
happens in a major catastrophe and the special needs of this 
particular population and the limitations of the foster parents 
who under even normal circumstances struggle, and then when 
they have lost their home and they have lost any 
transportation, it makes their ability to meet the contract of 
fostering extremely difficult.
    And finally, let me ask Health and Human Services, a major 
issue that came up was the portability and reciprocity between 
States relative to SCHIP. So as children left Louisiana and 
went to Mississippi, we had difficulty getting not just their 
medical records, but care for them in the 6 months they were in 
Mississippi, or if they went to Arkansas or they went to Texas. 
Has that been addressed, and if so, to what degree and what 
more do we need to do?
    Admiral Lurie. Well, that, too, is just a really important 
issue to take on. I think it is fair to say that the statutory 
and regulatory policies within State Medicaid programs have 
mechanisms in place to ensure the portability issues. That 
doesn't mean that the parents on the ground understand how to 
navigate the Medicaid program to do it or that the providers 
understand on the ground how to do that, and I think that is a 
place where the connect between the sort of administrative and 
bureaucratic procedures and the real life procedures and 
policies really have fallen apart and not done very well.
    As you know, the CHIPRA legislation really requires a very 
hard look at all of this going forward. CMS has been actively 
engaged and involved in that. I believe that in the next week 
or two, in fact, the sort of external stakeholder engagement 
process will begin. I know there are already a lot of ideas 
that people have generated internally about how to do this and 
we are looking forward to much more of this. This has just got 
to be nailed down.
    Senator Landrieu. OK. Well, thank you all very much. I am 
sorry I am going to have to dismiss our first panel. I 
appreciate your testimony. The record will remain open if there 
is anything else you would like to submit. And let me thank you 
all.
    To save time, I am going to go through the introductions as 
the next panel comes forward.
    Our first witness will be Paul Pastorek, Superintendent of 
Education in the State of Louisiana. For the last 20 years, he 
has been a leader in education reform, not only in our State 
but throughout the Nation. He formed Next Horizons, a nonprofit 
organization that serves as a state-wide think tank to connect 
Louisiana's leadership, spanning education and government. And 
most importantly, or equally importantly, he served in our 
State's Elementary Board of Secondary Education on the ground, 
so he gives a perspective that is real and relevant to the 
discussion today.
    Matt Salo is Legislative Director of Health and Human 
Services, National Governors Association (NGA). Prior to 
joining the NGA, he was a health policy analyst at the National 
Association of State Medicaid Directors. We are appreciative to 
have him today.
    Dr. Melissa Reeves, our third witness, is a certified 
school psychologist with an extraordinary background in this 
area.
    And finally, Douglas Walker is Clinical Director at Mercy 
Family Center and Project Fleur-de-lis in Louisiana. We are 
very proud of that project. In response to the devastation 
caused by Hurricane Katrina, he created this project as an 
intermediate and long-term school-based mental health service 
model. It now operates in over 64 New Orleans schools. We are 
really proud of the work that he has done and look forward to 
potentially suggesting this as a national model. We are very 
anxious to hear his testimony today.
    But, Mr. Pastorek, why don't we get started with you, and 
thank you for taking time out of your busy schedule to be with 
us.

  TESTIMONY OF PAUL G. PASTOREK,\1\ SUPERINTENDENT, LOUISIANA 
                    DEPARTMENT OF EDUCATION

    Mr. Pastorek. Thank you, Madam Chairman. I am very pleased 
to be here today, and I want to thank you, first of all, for 
your leadership, particularly for our State but also for our 
Nation. This is a particularly important hearing and we have 
had quite a few experiences in recent years and I appreciate 
you allowing me to share those experiences, not only for 
Hurricanes Katrina and Rita, but also for Hurricanes Gustav and 
Ike, which was a slight reliving of that, although not quite to 
scale.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Pastorek appears in the Appendix 
on page 79.
---------------------------------------------------------------------------
    I also want to thank our citizens in this country, our 
Federal agencies, and our Congress for the help that we did get 
after Hurricane Katrina. It was as speedy as it could be, I 
suppose, and it was as important and as substantial as it could 
be under the circumstances. Notwithstanding that, though, many 
challenges were experienced and continue to be experienced in 
Louisiana, all along the Gulf Coast, from both Hurricanes 
Katrina and Rita.
    At that time, we had about 370,000 students in two States, 
Louisiana and Mississippi, that were displaced immediately 
after August 29, 2005. My children were part of that 
displacement, being a resident of New Orleans. Today, we still 
have many thousands of children who have not returned. In New 
Orleans itself, we had a population of about 65,000 students. 
Today, we have a population of about 38,000 students. In Saint 
Bernard Parish, probably the hardest hit parish from Hurricane 
Katrina, about 10,000 pre-storm and about 5,200 today. So the 
ability to recover is a significant challenge when you are 
dealing with storms of this magnitude.
    Now, I would like to submit my testimony, but I am going to 
just mention a couple of key points that I think are important 
to keep in mind.
    Immediately after the--well, on the onset of the storm, on 
August 28, when hundreds of thousands of people evacuated--
millions of people, really, evacuated from Southeast Louisiana 
and Southern Mississippi, children moved to other locations. 
Children moved to Houston, to Baton Rouge, to Shreveport, to 
Atlanta, and, indeed, to 50 States around the country.
    School districts were immediately impacted. When thousands 
of kids showed up in Baton Rouge the following Monday and 
Tuesday and Wednesday as they trickled in, and they showed up 
in Houston, districts had to immediately place teachers in the 
classroom, immediately had to find textbooks, computers, space, 
and immediately had to find transportation. Those costs were 
immediately incurred.
    Now, even with the quick action of Congress after this 
event, and with your leadership, that of former Senator 
Kennedy, and others, Impact Aid Grants which were provided by 
Congress did not finally show up until January 2006, which 
means that districts all over this country had to provide 
resources to students which they did not plan for and did not 
really, frankly, have the resources to do.
    Now, much was done within the State to reallocate 
resources, but communities in our State have local taxes and 
they did not share the local taxes that were formerly received 
in Orleans Parish associated with children, or formerly 
received in Saint Charles Parish. So when kids went to Baton 
Rouge, Baton Rouge's local taxes had to carry that weight of 
those children, and the same is true for out of State. When 
kids went to Houston and to Atlanta, they were having to carry 
that weight, as well, and immediately having to do so. So 
districts had to dig down deep inside to cash flow the 
operations until such time as emergency funds were received.
    So I want to urge this Subcommittee and I want to urge 
Congress to consider a permanent fund to be available for these 
kinds of displacements so that school districts, not only in 
Louisiana, but all over the country, wherever a disaster may 
occur, would be immediately available to districts so that we 
would not have to cash flow this kind of emergency response on 
the backs of those receiving school districts.
    And the second major point I would like to bring to your 
attention is the issue of records and recordkeeping for 
students. When they do move, there are great difficulties in 
being able to translate the records of these students. Some 
districts and States are more prepared than others, but having 
some uniformity in this process would be a great assist for the 
receiving districts.
    Just one example. As we know, special education students 
have Individualized Education Plans. When they leave Saint 
Bernard Parish in a hurricane or some other affected area, 
whether it be in Louisiana or otherwise, they show up at a 
school in Houston, let us say, and they don't have their IEP. 
They don't have their record of what grade they are in. And 
some kids don't actually tell us exactly what their needs are. 
[Laughter.]
    Senator Landrieu. No.
    Mr. Pastorek. Some of them want to be in a higher grade 
than they actually are. [Laughter.]
    So it really is a bit of a confusion. So at the end of the 
day, I would urge you to consider that as you go forward, as 
well.
    And I have other points that I have raised in my testimony 
and I will reserve those for later comment.
    Senator Landrieu. I really appreciate that. Thank you so 
much. Mr. Salo.

TESTIMONY OF MATT SALO,\1\ LEGISLATIVE DIRECTOR FOR HEALTH AND 
         HUMAN SERVICES, NATIONAL GOVERNORS ASSOCIATION

    Mr. Salo. OK. Thank you, Madam Chairman. On behalf of the 
Nation's Governors, I really appreciate the opportunity to come 
before you and talk about the State role in making sure that 
the health care needs of kids were met post-Hurricanes Katrina 
and Rita.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Salo appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    Clearly, there is nothing we can do to prevent major 
catastrophes, but as you know, one of the key functions of 
State and local governments is to prepare for, react 
appropriately to, and recover from these incidents.
    Hurricanes Katrina and Rita, unfortunately, were a disaster 
of a scope that we couldn't really have prepared for. No one 
was really prepared for that, and the devastation that the 
hurricanes and the flooding left in their wake totally ruined 
the infrastructure of government. It ruined the infrastructure 
of the health and social services networks all along the Gulf 
Coast and it was quite the challenge, clearly.
    I do think that there are positives to take out of this. I 
think that we have learned a lot from that experience in 
knowing where the holes are, where the flaws in our 
preparedness planning are, where we do need to find 
improvements in the safety net. And I do think that given all 
of the challenges, there was an enormous effort on behalf of 
State officials to try to do as best as they could in that 
situation.
    Within 24 hours of what was, in effect, the largest and 
fastest mass migration in this country's history, we had 
Governors and State Medicaid directors on the phone with each 
other, with HHS, working and talking constantly to try to 
figure out how to best track, take care of, and protect the 
kids and the families, the seniors and people with disabilities 
who were in nursing homes who were displaced or otherwise 
affected.
    Clearly, we do think we need to do more. Clearly, I think 
we have learned a lot of lessons. I would say, clearly, we need 
to spend more time and more focus on thinking about the unique 
needs of children. I think the point is very well taken that 
they are not just little adults. But I think it is also 
important to note that children are, at the end of the day, 
members of a family unit and it is important to keep that in 
mind, as well, as we try to really take care of them as best we 
can.
    So with respect to actual recommendations that we would 
make in terms of what lessons we have learned since the 
hurricanes, I think four basic thoughts, the first of which is 
we need to strengthen and build upon the current framework of 
disaster planning and response. The lessons that we have is 
that all disaster planning really is local, and truly all 
disasters are different. Hurricanes Katrina and Rita were very 
different than sort of the wildfires and the interstate floods 
you saw in Iowa, and all of those are different than the 
terrorist attacks of September 11, 2001.
    The fact that all of these things are different and the 
fact that the immediate response is always local means that we 
need to build upon and strengthen sort of the State and local 
structure that is there, and I think there are a number of ways 
that the Federal Government can help us in doing that. I think, 
clearly, in our work with the Department of Homeland Security, 
with the sort of tabletop exercises over the past number of 
years that have operated regionally, trying to respond to 
various things like hurricanes or avian flu or other terrorist 
attacks, we have learned a lot. I think we can build those up, 
we can refocus those on the needs of children.
    Specifically what we learned in Louisiana and Mississippi 
and some of the other States is it is hard to get the 
infrastructure of the Medicaid system up and running when the 
State Medicaid employees had to worry about their child care 
needs. So it is not just the child care needs of the nurses who 
are taking care of people, but of folks who are actually in the 
infrastructure itself.
    A second piece is funding. I think the funding is critical. 
We worked very well with HHS on all sorts of different waivers 
and waiver templates to help kids as they move from Louisiana 
to Arkansas and in every other State. But at the end of the 
day, there wasn't anything that HHS could do about the fact 
that, at the end of the day, those waivers just said the host 
State had to bill all the services back to the home State, and 
clearly, Louisiana and Mississippi and the other impacted 
States could not afford to pay the bills in those times.
    Congress did come along and provided 100 percent Medicaid 
funding, provided uncompensated care package. That was 
extraordinarily useful. I would argue that I think we need to 
replicate that, make it permanent somehow so that enacting that 
doesn't take quite so long the next time we have a situation 
like this----
    Senator Landrieu. You have 30 seconds.
    Mr. Salo. And then I think the other--I guess the final 
piece that I would mention is around health information 
exchange. It doesn't matter how much money there was or how 
much planning there was if the only records of someone's 
medications or of their medical history, kind of like their 
school records, if they were submerged six feet under dirty 
water in a metal filing cabinet, they weren't going to help 
anybody. And I think we have gone a long way towards making 
sure this country is prepared for an interoperable health 
information exchange, but we are not there yet and I think we 
need to continue to move forward. A lot of that will prevent 
some of the problems that we saw in Hurricanes Katrina and 
Rita. So thank you.
    Senator Landrieu. Thank you, Mr. Salo. Dr. Reeves.

 TESTIMONY OF MELISSA REEVES, PH.D.,\1\ CHAIRPERSON, PREVENT, 
  REAFFIRM, EVALUATE, PROVIDE AND RESPOND, EXAMINE (PREPaRE) 
    COMMITTEE, NATIONAL ASSOCIATION OF SCHOOL PSYCHOLOGISTS

    Ms. Reeves. Good afternoon and thank you, Madam Chairman. 
It is a privilege to be here today on behalf of the National 
Association of School Psychologists and to share my view on the 
critical roles that schools must play in crisis response and 
recovery. In addition to being a graduate educator at Winthrop 
University and also a school psychologist, I am also lead 
developer of the NASP PREPaRE School Crisis Prevention and 
Intervention Training Curriculum and have more than 15 years of 
direct experience in helping schools respond to crises.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Reeves with an attachment appears 
in the Appendix on page 88.
---------------------------------------------------------------------------
    My remarks today are going to focus on the significant role 
of schools in keeping our children safe and healthy in the 
event of a crisis. After both September 11, 2001 and the Gulf 
Coast hurricanes, we saw America's schools thrust into the 
center of the Nation's crisis response, and I think it is safe 
to say that this country would have been unable to meet the 
needs of children and youth, even to the extent that we have, 
without our schools. As you have heard today, this support is 
vital because trauma can have significant psychological 
consequences that can interfere with learning and development.
    First and foremost, schools are where children reside for a 
significant amount of time each day. The learning environment 
provides structure, support, and opportunities to build coping 
skills.
    Second, school personnel know the students. They can 
monitor the residual and emerging effects of the crisis and 
provide continuity of support over time.
    And third, schools are familiar and accessible to families. 
This increases the likelihood that they will seek and accept 
support for their children and be more engaged in their 
children's learning and recovery.
    Community-based services are also critical to meeting the 
full continuum of children's needs. However, in schools, 
community services need to be closely coordinated with those 
provided by school-employed mental health professionals, such 
as school psychologists, counselors, social workers, and 
nurses. Ensuring the ongoing presence of school-employed mental 
health professionals is important because of our specialized 
training with children, knowledge of schools, and our 
familiarity with students.
    I saw firsthand as a crisis responder following the 
Columbine High School shooting, there were many mental health 
professionals offering assistance, but some lacked the special 
knowledge and training needed to work in schools with 
traumatized youth. Those lacking this knowledge were not 
particularly helpful, and in some cases, they actually did more 
harm than good.
    This brings me to a key point. School crisis response is 
not a matter of choice for schools. When a crisis occurs, the 
school can be immediately transformed from an environment 
focused on learning to a triage center, emergency shelter, 
evacuation site, counseling center, communication depot, and/or 
a liaison between families and community services. I can tell 
you that the entire school staff, including the front office 
staff, become crisis caregivers who provide a critical sense of 
normalcy for children.
    The problem is that very few schools today are adequately 
prepared to perform this role. We need legislation that links 
schools into policies and funding to ensure that all phases of 
emergency response are efficient and effective.
    So what does this look like? Effective school crisis 
response requires planning and strategies appropriate to the 
learning environment. These encompass physical and 
psychological safety, school community collaboration, a 
designated school crisis response team, and staff training. In 
training professionals across the country, I have often seen 
some of these components addressed, but rarely all.
    For example, a crisis plan may address physical safety with 
minimal focus on psychological safety, or staff training may 
focus on plan development, but not on plan execution.
    As a leader with NASP, I have had the privilege to help 
develop the PREPaRE School Crisis Curriculum designed to help 
schools build this capacity at the local level. NASP has long 
been a leader in school crisis response, providing direct 
support in schools, training, research, and free public 
resources. The PREPaRE Curriculum was developed by school-based 
professionals and integrates the U.S. Department of Education's 
Readiness and Emergency Management Guidelines and the National 
Incident Management System. PREPaRE combines the important 
aspects of crisis team and crisis plan development with 
extensive training on how to minimize children's traumatic 
impact within the school setting.
    To date, PREPaRE has trained close to 5,000 school and 
community professionals from more than 38 States, we offered it 
in New Orleans after the hurricane, also in several foreign 
countries, and in addition, we have trained over 200 local 
trainers. As one administrator put it. PREPaRE has provided the 
continuity amongst providers that we have striven to reach for 
years.
    How can Congress help schools build this capacity? We need 
clear policies that recognize the importance of schools in 
disaster and crisis response. These policies must give schools 
the mandate and funding to develop crisis plans and teams, 
train school staff, strengthen the schools' capacity to deliver 
short- and long-term mental health services, and sustain these 
supports over time.
    We need national school crisis response standards and a 
national repository for best practice resources and technical 
assistance. We also need research to evaluate the efficacy of 
school crisis training and strategies. Streamlined access to 
emergency funds in the event of a crisis with the goal of 
restoring learning environments as quickly as possible is 
critical. And we need a clearly-defined mechanism for school-
community collaboration that lays out roles, responsibilities, 
and the use of resources.
    Last, schools need an adequate number of school-employed 
mental health professionals such as school psychologists who 
can provide the ongoing expertise and support before, during, 
and following a crisis. These are the professionals trained to 
link services and interventions to learning, not just in the 
event of a major disaster, but through daily challenges that 
affect children's academic achievement and well-being.
    Again, I would like to thank you for your leadership on 
these issues and the opportunity to be here today.
    Senator Landrieu. Thank you very much for that excellent 
testimony. Mr. Walker.

  TESTIMONY OF DOUGLAS W. WALKER, PH.D.,\1\ PROJECT DIRECTOR, 
                      FLEUR-DE-LIS PROJECT

    Mr. Walker. Thank you, Madam Chairman, for allowing me to 
represent our State of Louisiana as a child psychologist and a 
father of two young children.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker with attachments appears 
in the Appendix on page 94.
---------------------------------------------------------------------------
    Friday after the storm, we found ourselves evacuated to 
East Baton Rouge Parish, and I was lucky enough to be at the 
right place at the right time to be invited to the Louisiana 
Department of Education Office of Community Services. When I 
arrived there to discuss a possible plan, I was shocked to find 
out, as I was handed the evacuation sheet, that there was no 
plan. And at the end of that day, they sent me out that weekend 
to develop a plan for the State.
    As politics would have it and the Stafford Act, the calls 
stopped coming for meetings at the Department of Education, so 
I turned to the schools that were opening in our area. Along 
with Father William Maestri, the Catholic Schools, was linked 
with Catholic Charities and found funding to start what is now 
called Project Fleur-de-lis. Project Fleur-de-lis is now the 
largest school-based mental health response to Hurricane 
Katrina. We currently have 64 schools in our program.
    We started in that fall, and gathering a consensus of what 
the area schools needed. We gathered along the way evidence-
based practice and we layered it in such a way that made sense 
to the needs of our schools.
    The first school we entered was Cathedral School in the 
French Quarter. We chose that school because the first 
responders children were going there. We were fully operational 
in our three-tiered model of care in the fall of 2006. One side 
of the care involves triaging. Every single week for nearly the 
past 4 years, counselors come to Mercy Family Center and triage 
kids who are in need of care. Now, early on, they asked me, Dr. 
Walker, so you are just going to serve the kids who are 
traumatized, correct? I said, well, tell me who those are going 
to be. Tell me who. It is everybody. It is my kids. It is your 
kids, its everyone.
    So through funding by Catholic Charities, American Red 
Cross, Booth-Bricker, Freeport-McMoran, we entered out of the 
Catholic schools (we still have about 32 Catholic schools) and 
entered into the charter schools, the public schools, and we 
also have a couple of private schools. So we have helped as 
many as 1,000 students with free care, kids every single week 
provided free care.
    Our triage model of care, as far as school-based 
interventions, involve now psychological first aid. We use 
PREPaRE, actually, for untimely deaths and CBITS, Cognitive 
Behavioral Intervention for Trauma in Schools. And at the top 
of the triangle is Trauma-Focused Cognitive Behavioral Therapy. 
I am now a certified trainer in CBITS. I have trained over 200 
counselors in Southeast Louisiana. Over the past 4 years of 
service, we have provided services for as many as 200 kids in 
CBITS, over 100 kids for Trauma-Focused Cognitive Behavioral 
Therapy, and, of course, are available to provide psychological 
first aid if, God forbid, we have to roll out that first level 
of care.
    I am proud to say that it is a grassroots organization. 
Project Fleur-de-lis is part of the Sisters of Mercy Health 
Care System, and I am a father of two young boys, and I can say 
that every single night that Project Fleur-de-lis keeps me up 
at night, but it is why I get up in the morning.
    Recommendations--I think that we need to fund intermediate 
and long-term care, and with particular focus on the schools 
and providing care in the schools. The Success of Project 
Fleur-de-lis comes about by two areas of expertise. First and 
the foremost is the expertise that lies in the school 
counselors in the schools. They know their community best, and 
that is why Project Fleur-de-lis has been successful, combining 
that expertise with evidence-based practice available through 
the National Child Traumatic Stress Network and other fine 
organizations such as NASP.
    Second recommendation, that we look at a coordinated effort 
in training school psychologists, mental health professionals, 
counselors in the community and school-based throughout the 
United States so when something like this again happens, we 
have a standard registry to pull from for expertise to help.
    Finally, I would like Fleur-de-lis to be considered as best 
practice, a tiered model of care, finding kids where they live 
in schools and providing the services they need post-disaster.
    Again, Madam Chairman, thank you for your invite today and 
I look forward to working with you all in the future.
    Senator Landrieu. Thank you very much, and thank you for 
creating this new model, and also your passion.
    Let me ask you, as a professional, the work that you were 
doing before Hurricane Katrina and then the work that you 
started to do after Hurricanes Katrina and Rita with the Fleur-
de-lis Project, what training did you lack that you just had to 
learn as you went that maybe we should be aware of in just the 
basic training for your profession? Could you try to describe--
--
    Mr. Walker. Yes.
    Senator Landrieu [continuing]. A little bit of your 
learning curve----
    Mr. Walker. I was minding my own business before the storm. 
[Laughter.]
    I had a fellowship in pediatric psychology and infant 
mental health, so I knew trauma pretty well by way of hospitals 
and certainly abuse and neglect of young children by way of 
those fellowships. What I lacked was evidence-based treatment, 
treatment that provided not only the best research, but also 
combined the value and cultures of the community and the 
expertise of the clinicians themselves.
    We were trained first with CBI which was sponsored by Save 
the Children at the time. That was our large group 
intervention. Next came that summer was Cognitive Behavioral 
Intervention for Trauma in Schools. And finally, Trauma-Focused 
Trauma Behavioral Therapy. And it is a tiered level of care 
where the large CBI and now psychological first aid blankets an 
entire school, and that is where you start. That is where you 
begin. And those kids are then in turn triaged up to CBITS, to 
small group intervention, usually about ten kids, primarily 
ages four to nine. And then if those kids, in turn, need 
additional therapy, then we do more intense work, one-on-one 
work through Trauma-Focused Cognitive Behavioral Therapy. So 
those are the things--that have been really our keystones or 
our building blocks for the past 4 years.
    Senator Landrieu. Were you limited in any way either by 
your own vision of the program or the funding you received for 
actually treating the child in the context of their family? For 
instance, if brothers and sisters were going to other schools 
or cousins were in the same school, or a single mom, is the 
work that would be done at the school level only for the 
children, or were there times when family members came in, as 
well?
    Mr. Walker. Well, I would say the time after Hurricane 
Katrina for all of us was frenetic, and we have a lot of 
evidence to suggest that traditional mental health therapy in 
clinics like my own (I still do patient care 2 days a week) is 
difficult to achieve. We can't expect parents to go to a 
clinic, like you said before, Madam Chairman, that doesn't 
exist anymore. It is the schools and it is the kind of a center 
where we meet up with parents for school meetings, as well.
    When children are spread out and treated as a family, that 
is more of a challenge, when you have a teenager, you have a 
fourth grader. But we do the best we can and the school 
environment really needs to be opened up to provide this type 
of treatment post-Katrina--I mean, after storms, especially 
when we consider that is where we live and we know the impact 
of trauma on learning. So it is a slam dunk and a win-win, in 
my opinion.
    Senator Landrieu. Mr. Pastorek, two questions. You weren't 
the Superintendent when Hurricanes Katrina and Rita hit, but 
you have been for the past few years. Is this issue coming up 
to you still from your principals and your teachers at schools 
that are in the disaster-affected area, how has it come up, and 
what are you doing about it, or what are some of the things 
that they share with you about their ongoing needs in this 
area?
    Mr. Pastorek. Well, I was just in New Orleans a few weeks 
ago visiting four schools. The challenges are still quite 
significant. I think the emergency response most readily 
gravitates to buildings and infrastructure and least easily 
gravitates to the soft side of supporting kids in this 
situation.
    So you can see relatively quick response on the facility 
side, even though that was a long response, but relatively 
quick. But on the psychology, psychological services, the other 
kinds of services, it has been very difficult, very slow, and 
very inadequate.
    So what I hear from principals is that the numbers of kids 
who are homeless in New Orleans are much larger than they have 
ever been before the storm. These are functionally homeless and 
real homeless, kids who literally are living in other people's 
homes, kids who are living with non-relatives. And I was at a 
high school in New Orleans, and you know Ms. Laurie at O. Perry 
Walker High School. She was telling me that she estimates the 
numbers of homeless now in her high school at about 20 percent, 
which is a pretty phenomenal number.
    The impact is significant, and when you consider the 
psychological and psychosocial impact of these kinds of kids 
who are still suffering from the storm nearly 5 years later, it 
is significant. And it isn't because people aren't trying, and 
it isn't because we don't want that to happen. But the 
infrastructural support and the focus of emergency response and 
recovery is not really as heavy on that as it could be. So that 
is part of it.
    And then I think the other part of it is that kids who are 
coming back are coming back today--literally since the start of 
school in September, we have had 1,700 new students come into 
the City of New Orleans to return to school, and they come back 
without really having been in school in a number of cases, 
living in a homeless-type or functional homeless-type 
situation. So these kids are coming back with tremendous needs 
even now, almost 5 years later.
    So the challenges are great. The challenges are 
significant. I think, I don't think people still understand the 
magnitude of what has happened and how much and how difficult 
it is.
    And then I will add one other piece in here. The impact on 
the adults who are trying to educate the kids and trying to 
provide other services to kids are also still being felt. Those 
people are still trying to recover homes, even today, and 
trying to rebuild homes. So they are trying to do two things at 
one time, do their work and rebuild their homes and also manage 
and take care of their kids. So while there are certainly parts 
of the city and parts of the school system that have recovered, 
it continues to be a long slog.
    I will give you one final point. We had our first new 
school that was built from the ground up post-Katrina and it 
was opened only 3 months ago. We have many schools slated for 
reopening and we have many facilities slated for reopening. And 
we have probably moved at lightning speed, frankly, in the 
education arena at rebuilding schools. But it is still a long 
haul to go.
    Senator Landrieu. Ms. Reeves, did you want to add anything 
to that? I see your head nodding as he is speaking.
    Ms. Reeves. Yes. All of their points are really valid and 
we tend to focus more on what we refer to as physical safety. 
The psychological safety piece is either completely overlooked 
or it is really minimized. I know from the schools' 
perspective, there are a lot of different contributing factors, 
but one of the biggest pieces is there is a shortage of school-
employed mental health professionals. Those that are there are 
just spread so thin. There are huge ratios of the school-
employed mental health professionals to students and they just 
can't meet all of the needs.
    In addition to that, we also have key decision makers 
within the educational system that draw these arbitrary 
boundaries between academic achievement and mental health. I 
even had one decisionmaker in a larger school district say to 
me, ``well, mental health is not the responsibility of 
schools.'' And I think that person meant that from the aspect 
of we have so many other priorities coming at us as educational 
administrators that somewhere we have to say, here is the line. 
But you can't arbitrarily separate those. They do go hand in 
hand, and I think all of us today have spoken to the importance 
of that.
    In addition, school-employed mental health professionals, 
and I will speak from the angle of a school psychologist, still 
have many ikey decisionmakers and administrators that see us in 
the role that we were in 20 years ago; which is assessing 
students for special education qualification. Our roles have 
expanded tremendously to include direct mental health services. 
But again, those key decision makers that determine how many 
school psychologists are going to be employed and determine 
what our job roles look like, they keep wanting to put us back 
in that old testing role. And a lot of times, we have barriers 
put up that don't allow us to utilize our training in providing 
direct services to children.
    The Project Fleur-de-lis is a great example of school-
community collaboration and the importance of providing those 
direct mental health services to kids, and school-employed 
mental health professionals can help with that if we are 
allowed to and if we have the resources to be able to do so.
    Senator Landrieu. Our time is coming to an end, but Mr. 
Walker, just again for the record, your organization, Fleur-de-
lis, received how much money from government sources and how 
much from charitable contributions?
    Mr. Walker. Yes. We are a proud member now of the National 
Child Traumatic Stress Network and we are funded for $1.4 
million until 2012. We are also currently funded by a----
    Senator Landrieu. Through a Federal grant?
    Mr. Walker. Federal grant, through SAMHSA, yes, the NCTSI 
grant. We also currently are funded from Baptist Community 
Ministries locally. And prior to that, throughout the years, 
our other major contributors included American Red Cross, 
Booth-Bricker, Freeport-McMoran local----
    Senator Landrieu. So it was truly a private----
    Mr. Walker. Yes.
    Senator Landrieu [continuing]. Not-for-profit----
    Mr. Walker. Correct. Yes.
    Senator Landrieu [continuing]. And now a government-
supported collaboration.
    Mr. Walker. Exactly. We entered the NCTSN last fall, but 
until 2007, it was a private enterprise.
    Senator Landrieu. OK. Mr. Salo, do you have anything to 
add, because I have got one more question for Mr. Pastorek and 
I didn't want to pass you up. Anything that is on your mind 
that you want to add or answer?
    Mr. Salo. Yes. No. I just think that all of my fellow 
panelists have raised really legitimate issues. One of the 
things that I worry about moving forward with is how do we 
build the capacity to do all these things given the current 
economy and the state of the State budgets.
    Senator Landrieu. Well, let me ask you this. Has the 
National Governors Association either post-Hurricanes Katrina, 
Rita, Gustav, or Ike, or post any major disaster established a 
permanent subcommittee among the National Governors to work on 
these issues. Coordinated evacuation plans? Reciprocity? Have 
you ever established that through National Governors----
    Mr. Salo. Yes.
    Senator Landrieu [continuing]. And if so, is there one that 
exists today, such a committee?
    Mr. Salo. Yes. We do have our State-Federal affairs side of 
our organization, sort of a homeland security committee, 
broadly written, whose function is a lot of these issues. We 
also have our Center for Best Practices, where we have a number 
of staff who are devoted precisely to preparedness planning, 
public health, and a number of the issues that go hand-in-hand 
with a lot of the Memorandums of Understanding that go on 
between the States. So we do have that in place. We are there 
to work with States. I know also the State Medicaid Directors 
Association was working very well with the States in terms of 
the Medicaid and sees the SCHIP Directors post-Katrina----
    Senator Landrieu. Well, I raise that because as this 
Subcommittee continues this work--this is a special focus, it 
is not our only focus, but a special focus on pushing through a 
major piece of legislation relative to reforms regarding how 
governments and our partners respond and treat and help 
children recover in the context of children as members of the 
family. I would really appreciate input from the National 
Governors Association and potentially maybe establishing some 
sort of committee for the next 6 months to work with us would 
be welcomed on our part.
    Final question to you, Mr. Pastorek. We are debating right 
now, how do we establish this reimbursement for students moving 
from one school to another school and whether that 
reimbursement should follow the student, whether there should 
be any restrictions or guidance relative to students going from 
public school to private school or parochial school to public 
or public to parochial. Do you have any views on that? Is it 
wise for us to consider some of those restrictions, or is it 
better just to let parents get their kids in whatever school 
they can and figure out the details later?
    Mr. Pastorek. I have given actually great thought to that 
issue, and frankly, I think you need to have the money 
following the child, regardless of the sources of either 
public-private on the starting end or on the receiving end. I 
think it is extremely important to understand that in this 
emergency circumstance, people are struggling to figure out 
what to do, where to go, and sometimes their choices are quite 
limited. Sometimes their choices are quite problematic.
    So I do think it is important to recognize that everyone is 
entitled to an education and everyone is entitled to get a 
quick recovery for themselves to get back in the cycle. And it 
is important for the children especially not to get into the 
haggling over where do you come from and where are you going 
to, but what is the community's obligation to get children back 
online as promptly as possible.
    It is not only from an academic education perspective, but 
I would argue it is from a psycho-social perspective, as well. 
Children need to be back in the classroom. That actually was a 
quite calming influence for children who had to be uprooted and 
moved from one location--from their home, from their community, 
from their school--and placed elsewhere. To come back to a 
school setting is extremely important.
    So I think it is very important to be focused on the child 
and not only the restrictions and so on and so forth, because 
even applying those restrictions are going to give rise to all 
kinds of uncertainty on the part of the parent as to what to 
do, what they can do, what they can't do, and then it causes 
restraint on them to be able to make decisions that are in the 
best interest of their children.
    Senator Landrieu. Thank you very much.
    This tuition reimbursement provision will be in the 
children's bill, which is what we are putting together now. So 
that is a major portion of this bill.
    But I thank you all. Unfortunately, our time to close the 
hearing has arrived. We have received tremendous testimony. A 
variety of different issues have come forward, and I thank you 
all for participating.
    Again, the record will stay open for 15 days. Please feel 
free to add any supplemental material or additional comments 
from colleagues or others that you would like to submit to the 
record. We will be using this record to build the provisions of 
this part of the bill.
    So I thank you all very much, and the hearing is adjourned.
    [Whereupon, at 4:30 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                 <all>

</pre></body></html>
